-APPENDIX-

1: APPENDIX A - Decision, Judgment, and Opinion, of the Third District
Court of Appeals, Case No. 8-19-52 & 8-19-53,
Dated: August 10th, 2020.
2: APPENDIX B - Decision and Judgment of the Bellefontaine Municipal Court
(Trial Court), Case No. 11CRB1721 & 11CRB1850,
Dated: November 05th, 2019.
3: APPENDIX C - Decision and Judgment of the Ohio Supreme Court (DiscretionaryAppeal), Case No. 2020-1110, Dated: November 10th, 2020.

-B-

APPENDIX A

)

[Cite as State v. Artis, 2020-0hio-4018.]

IN THE COURT OF APPEALS OF OHIO
THIRD APPELLATE DISTRICT
LOGAN COUNTY

STATE OF OHIO,
PLAINTIFF-APPELLEE,

CASE NO. 8-19-52

v.
TYRELL E. ARTIS,

OPINION

DEFENDANT-APPELLANT.

STATE OF OHIO,
PLAINTIFF-APPELLEE,

CASE NO. 8-19-53

v.
TYRELL E. ARTIS,

OPINION

DEFENDANT-APPELLANT.

Appeals from Bellefontaine Municipal Court
Trial Court Nos. 11 CRB 01721 and 11 CRB 01850
Judgments Affirmed
Date of Decision: August 10, 2020

APPEARANCES:
Tyrell E. Artis, Appellant
Crystal K. Welsh for Appellee

Case Nos. 8-19-52, 8-19-53

ZIMMERMAN, J.
{Ill} Defendant-appellant, Tyrell E. Artis (“Artis”), pro se, appeals the
November 5, 2019 judgment entries of the Bellefontaine Municipal Court denying
his motions to withdraw his guilty pleas in case numbers 11 CRB 01721 and 11
CRB 01850. We affirm.
{1R} This case stems from Artis’s 2011 convictions for domestic violence in
case numbers 11 CRB 01721 and 11 CRB 01850, respectively, which were used to
enhance Artis’s 2018 conviction for domestic violence. See State v. Artis, 3d Dist.
Logan No. 8-18-40, 2019-0hio-2070. On November 2, 2011, Artis was charged
with domestic violence in violation of R.C. 2919.25(A), a first-degree misdemeanor.
(Case No. 11 CRB 01721, Doc. No. 1). On November 3, 2011, Artis appeared for
arraignment and pled not guilty to the charge. {See Case No. 11 CRB 01721, Doc.
Nos. 16, 17); (Dec. 5, 2011 Tr. at 2).
fl[3} While awaiting trial in case number 11 CRB 01721, Artis was charged
on November 21, 2011 with another domestic-violence charge in violation of R.C.
2919.25(A), a first-degree misdemeanor, in case number 11 CRB 01850. (Case No.
11 CRB 01850, Doc. No. 1).
{1J4} On December 5, 2011, Artis withdrew his plea of not guilty in case
number 11 CRB 01721 and entered guilty pleas to the domestic-violence charge in
both cases. (Dec. 5, 2011 Tr. at 2-5). The trial court accepted Artis’s guilty pleas
-2-

Case Nos. 8-19-52, 8-19-53

and found him guilty of the charges. (Case No. 11 CRB 01721, Doc. No. 25); (Case
No. 11 CRB 01850, Doc. No. 13). That same day, the trial court sentenced Artis to
3 days in jail in case number 11 CRB 01721 and 14 days in jail in case number 11
CRB 01850. (Id.); (Id). The trial court further ordered that Artis serve the terms
consecutively for an aggregate term of 17 days. (Id.); (Id.). Importantly, Artis did
not directly appeal either case.
{1)5} On May 18, 2018, the Logan County Grand Jury indicted Artis on one
count of domestic violence in violation of R.C. 2919.25(A), (D)(4), a third-degree
felony. Artis at ^ 2. The 2018 domestic-violence charge was elevated to a felony
of the third degree as a result of Artis’s prior convictions in 2011. See id. at U 47,
fn. 9.
{116} Artis was found guilty by a jury of the 2018 domestic-violence charge
and sentenced on August 21, 2018 to 36 months in prison. Id. at

9-10. Artis

directly appealed his conviction to this court and we affirmed his conviction on May
28, 2019. Id. at ]f 56. Importantly, Artis did not contest the use of his 2011
domestic-violence convictions to enhance his 2018 conviction to a felony of the
third degree in his direct appeal from his 2018 domestic-violence conviction.
{1f7} Thereafter, on October 29, 2019, Artis filed a motion (in each case) in
the trial court to withdraw his 2011 guilty pleas, arguing that his domestic-violence
convictions were uncounseled. (Case No. 11 CRB 01721, Doc. No. 48); (Case No.

-3-

Case Nos. 8-19-52, 8-19-53

11 CRB 01850, Doc. No. 21). On November 4, 2019, the State filed memoranda in
opposition to Artis’s motions to withdraw his guilty pleas. (Case No. 11 CRB
01721, Doc. No. 56); (Case No. 11 CRB 01850, Doc. No. 29). The following day,
the trial court denied Artis’s motions to withdraw his guilty pleas. (Case No. 11
CRB 01721, Doc. No. 61); (Case No. 11 CRB 01850, Doc. No. 34).
{^8} On December 2,2019, Artis filed a notice of appeal in both cases, which
were consolidated for purposes of appeal. (Case No. 11 CRB 01721, Doc. No. 75);
(Case No. 11 CRB 01850, Doc..No. 41). He raises one assignment of error-for our
review.
Assignment of Error
The Appellant’s United States Fourteenth Amendment Right was
violated when the Court denied his Motion to Withdraw Plea, as
he has established that the prior plea was an uncounseled plea.
{1f9} In his assignment of error, Artis argues that the trial court erred by
denying his motions to withdraw his guilty pleas. Specifically, Artis argues that his
guilty pleas were not made knowingly, intelligently, and voluntarily because he
entered the pleas without the assistance of counsel.
Standard ofReview
v. {1fl0} “Appellate review of the trial court’s denial of a motion to withdraw a
guilty plea is limited to whether the trial court abused its discretion.” State v.
Streeter, 3d Dist. Allen No. 1-08-52, 2009-0hio-189, U 12, citing State v. Nathan,

-4-

Case Nos. 8-19-52, 8-19-53

99 Ohio App.3d 722, 725 (3d Dist.1995), citing State v. Smith, 49 Ohio St.2d 261
(1977). An abuse of discretion suggests the trial court’s decision is unreasonable,
arbitrary, or unconscionable. State v. Adams, 62 Ohio St.2d 151, 157 (1980).
Analysis
{IfH} Crim.R. 32.1 provides, “A motion to withdraw a plea of guilty or no
contest may be made only before sentence is imposed; but to correct manifest
injustice the court after sentence may set aside the judgment of conviction and
permit the defendant to withdraw his or her plea.” “The party moving to withdraw
the plea of guilty bears the burden of establishing a manifest injustice.” Streeter at
H 13, citing Smith at paragraph one of the syllabus. A manifest injustice is a clear
or openly unjust act and relates to a fundamental flaw in the plea proceedings
resulting in a miscarriage ofjustice. State v. Straley, 159 Ohio St.3d 82, 2019-Ohio5206, U 14. “[A] postsentence withdrawal motion is allowable only in extraordinary
cases.” Smith at 264. “Res judicata bars the assertion of claims against a judgment
of conviction in a motion under Crim.R. 32.1 when those claims were or could have
been raised on direct appeal.” State v. Cagle, 9th Dist. Medina No. 19CA0058-M,
2020-0hio-316, ^ 4, citing State v. Ketterer, 126 Ohio St.3d 448, 2010-0hio-3831,
1 59. See also Straley at

14.

{1112} Here, Artis was convicted in the trial court of domestic violence in
case number 11 CRB 01721 and 11 CRB 01850 in 2011. Artis did not directly

-5-

Case Nos. 8-19-52, 8-19-53

appeal his conviction in either case. Compare Cagle

5 (noting that Cagle did not

file a direct appeal from his 2002 convictions”); Straley at ^ 23 (“Straley did not
argue on direct appeal that he should be permitted to withdraw his guilty plea.”).
Instead, Artis—after his convictions were used to enhance a subsequent conviction
nearly eight years later—filed motions to withdraw his guilty pleas in which he
argued that his guilty pleas were not made knowingly, intelligently, and voluntarily
because he entered the pleas without the assistance of counsel. See State v. Rock,
11th Dist. Lake No. 2018-L-037, 2019-Ohio-1416, ^ 18, citing State v. Dabelho,
llthDist. Trumbull No. 2001-T-0142, 2002-0hio-6941, If 11.
{^fl3} Artis could have challenged his guilty pleas in direct appeals. See
Straley at f 23 (“Straley could have challenged his guilty plea on direct appeal.”),
citing State v. Sarkozy, 117 Ohio St.3d 86, 2008-0hio-509, paragraph one of the
syllabus. See also State v. Gatchel, 11th Dist. Lake No. 2007-L-212, 2008-Ohio4667, H 22 (“In the case at bar, appellant’s various claims that he raised in support
of his post-sentence motion to withdraw his guilty plea were known to him at the
time he pursued his direct appeal.”). Because Artis could have raised his arguments
in a direct appeal, Artis’s arguments are barred by the doctrine of res judicata and
he cannot now raise them in a post-sentence motion to withdraw his guilty plea. See
Gatchel at U 22 (“Because appellant could have raised them at that time, he cannot
'now raise them in a post-sentence motion to withdraw his guilty plea.”). Therefore,

-6-

Case Nos. 8-19-52, 8-19-53

the trial court did not abuse its discretion by denying Artis’s motions to withdraw
his guilty pleas. See State v. Mulkey, 9th Dist. Summit No. 29380,2020-0hio-3531,
U 5 (concluding that “the trial court did not abuse its discretion by denying
[Mulkey’s] motion to withdraw his no-contest plea” since “Mulkey could have
raised this argument” “that his plea was not knowingly, voluntarily, and intelligently
made ?9 a in a direct appeal”); Straley at 23 (concluding that “the trial court did not
abuse its discretion in finding that res judicata barred Straley’s motion to withdraw
his guilty plea”); Rock at f 19.
{*|fl4} Artis’s assignment of error is overruled.
{H15} Having found no error prejudicial to the appellant herein in the
particulars assigned and argued, we affirm the judgments of the trial court.
Judgments Affirmed
SHAW, P.J., and WILLAMOWSKI, J., concur.
/jlr

-7-

-APPENDIX B-

IN THE BELLEFONTAINE MUNICIPAL
LOGAN COUNTY, OHIO 2019 HOV
STATE OF OHIO
CITY OF BELLEFONTAINE,
Plaintiff,
-VS-

a”

-5 PH 2-25

FILED
CASENO. 11 CRB 01721
11 CRB 01850

TYRELL E. ARTIS
Defendant.
JUDGMENT ENTRY
This matter came before the Court upon Defendant’s Motion to Withdraw his
former plea of guilty in the above referenced cases. In case no. 11 CRB 01721, the
defendant was arrested for Domestic Violence on November 2, 2011. He entered a plea
of Not Guilty and the case was scheduled for trial on December 5, 2011. He was given an
OR bond with a no contact order relative to the victim. On November 29, 2011, the
Municipal Court Prosecutor filed a Motion to Revoke the Defendant’s Bond for alleged
violation of the conditions of bond. The allegation was that the Defendant went to the
home of the complaining witness and sprayed her face with pepper spray. The Defendant
was arrested on December 5, 2011, and charged with a second offense of Domestic
Violence. The defendant neither requested court appointed counsel, nor did private
counsel enter an appearance on his behalf. He pled guilty to the charge in each case, was
convicted and sentenced. Defendant’s Motion is now before the Court nearly 8 years after
the cases were concluded. Upon review, the Court determines that these motions have
been filed because the Defendant has exhausted his appeals after being convicted, by a
jury, of Domestic Violence (F3) and Abduction (F4) in the Logan County Common Pleas
Court. The Third District Court of Appeals overruled his assignment of error and
affirmed the convictions on May 28, 2019. The Defendant then filed an appeal with the
Ohio Supreme Court, which was not accepted for review.
Ohio Criminal Rule 32.1 provides that “a motion to withdraw a plea of guilty or
no contest may be made only before sentence is imposed; but to correct manifest injustice
the court after sentence may set aside the judgment of conviction and permit the
defendant to withdraw his or her plea”. However, “a trial court has no authority to even

Filipp

KARLA STEVENS. CLERK
BELLEfONTAIliE,
consider a motion to withdraw a plea after a conviction has been affirM&f ©n-appSkl^
State v. Carter, 3rd Dist. 2011-Ohio-6104 pg. 11. (Citing the Muni^jy^^g^iir^

2: 25

Prosecutor’s brief in opposition.)
Additionally, pursuant to Criminal Rule 44 (C), waiver of counsel shall fcjikj^iefgburt,
however, only in serious cases must the waiver be in writing.
The Defendant also claims that his uncounseled convictions could not be used to
support a prison term, either initially, to punish a misdemeanor or later, to lengthen the
jail time for subsequent conviction. That issue might have been raised in the Common
Pleas Court or Court of Appeals, but does not apply in these cases. In 11 CRB 1721, the
Court imposed a fine of $150.00 and sentenced the Defendant to 3 days in the T .opart—---County Jail. In Case No. 1H3RB 1850, the Court imposed a fine of $ 150.00 and
jsentenced the Defendant to 14 days inJhgjLogan County Jail. The sentences were
imposed in the same hearing and were slight considering the offenses. It should be noted
that the Defendant received no further punishment for violating the terms of his OR bond.
Upon due consideration, the Courts finds the Motion is NOT WELL TAKEN and
is therefore DENIED.

IT IS SO ORDERED.

z

Ann E. Bi
Cc: Defendant
Prosecutor

, U p

Judge

•i

;

I

BLANK PAGE

Pfs]
i

‘Qlife Supreme (Court of (Bljia

fF3

il

1*3
U~n: LU3 \h~i)

NOV 10 2020
ct!fNCLERK Of COURT
SUrREMt tOURT OF OHIO

State of Ohio

Case No. 2020-1110

v.

ENTRY

Tyrell E. Artis

Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).
(Logan County Court of Appeals; Nos. 8-19-52 and 8-19-53)

Maureen O’Connor
Chief Justice

■?

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

